                                                          October 13, 2004

MEMORANDUM
FOR:          AA/M, John Marshall

FROM:         AIG/A, Bruce N. Crandlemire

SUBJECT:      Interim Report on Phoenix Overseas Deployment Pilot
              Observation at Egypt (Report No. A-000-05-001-S)

       This memorandum transmits our memorandum report on the subject
       audit.

       This is not an audit report. The report is an interim report and
       contains no recommendations for your action. Our testing and
       analysis is ongoing with respect to the audit. An audit report will be
       issued at the conclusion of our test work. We are requesting that
       requisite members of the POD team review the concerns identified
       and provide written responses within 15 days of the date of
       issuance of this report to address and/or provide modified
       approaches to remedy the concerns.

       We appreciate the cooperation and courtesy extended to the staff
       during the Egypt observation.



Please Note: The Agency’s response is provided in the Appendix section.
Background   The U.S. Agency for International Development (USAID) initiated
             the Financial Systems Integration (FSI) project to implement a
             single Agency-wide integrated core financial system. American
             Management Systems (AMS) Momentum Financials™ software is
             a commercial off-the-shelf (COTS) financial management system,
             which has been configured for USAID and is referred to as
             Phoenix. Phoenix replaced the New Management System legacy
             financial management system and it is compliant with the
             requirements issued by the Federal Accounting Standards
             Advisory Board and Joint Financial Management Improvement
             Program. The use of a COTS software package advances USAID
             towards Federal Financial Management Improvement Act
             compliance and provides standard financial business processes and
             standard financial management systems across the Agency.

             In December 2000, Phoenix was rolled out at USAID headquarters
             in Washington, D. C. Direct-hire staff from the Chief Financial
             Officer’s (CFO) office, Office of Information Resource
             Management (M/IRM) and the Program Management Office have
             been joined by AMS (software vendor), PRIME (USAID’s
             Information Technology (IT) support contractor), and IBM
             (USAID’s IT strategy and program management support
             contractor) to deploy Phoenix at all missions that have access to
             the Mission Accounting Control System (MACS) data and that
             have a Controller. The guiding principle, from the CFO’s office, is
             that full deployment will result in financial transactions being
             recorded when and where they occur by the person effecting the
             transaction.

             In 2004, Phoenix was piloted at the Peru, Egypt, and Ghana
             accounting stations and the Columbia and Nigeria client missions
             of Peru and Ghana respectively (collectively pilot missions). The
             production roll out of Phoenix to the pilot missions took place on
             August 10, 2004. As a part of the pilot deployment phase, the
             Missions were provided with a Phoenix non-production
             playground database. The non-production pilot database allowed
             the Missions to enter transactions into Phoenix, with Phoenix
             Overseas Deployment (POD) team members available to answer
             any questions that arose. The onsite POD support teams were
             developed to provide user training, data migration and validation
             support, user acceptance testing, workflow and issue resolution,
             technical performance monitoring, operational support, and change
             management services.




                                                                                   2
Discussion   We recently had the opportunity to observe the Phoenix pilot
             migration process conducted at the Egypt mission from July 13 to
             July 22. Observing the pilot migration process provided us with
             insight and a basis for our ongoing audits of USAID’s Phoenix
             Overseas Deployment (POD) project. As a result of our
             observations, we identified several concerns with respect to the
             process of deploying Phoenix overseas in the pilot missions.
             Although our testing and analysis of the pilot and production
             deployment process is ongoing, it would be extremely helpful to
             the next phase of our work to have our concerns addressed through
             this interim report. Upon completion of our testing of the
             production migration, we will issue an audit report of the POD at
             the pilot missions.

             This report focuses on three critical areas of the deployment:

             •   System performance and hardware challenges – USAID is
                 relying on old hardware that may be unreliable to provide
                 interconnectivity between USAID/Washington and overseas
                 missions.

             •   The data migration process – preliminary observations of the
                 process raises questions regarding whether the pilot process
                 serves as a basis for providing a stable model for the full global
                 deployment of Phoenix.

             •   The global deployment schedule – The overriding question is
                 “full global deployment of Phoenix.” As a result of our
                 concerns related to the stability of the data migration process
                 we feel it prudent to take a proactive approach in our
                 evaluation and assessment. We have very serious concerns that
                 the global migration deployment timeline may be too
                 aggressive to achieve a successful result.

             System performance and hardware challenges

             Slow system response and connectivity continues to be a challenge
             for the FSI project. In the Open Issues Detail Report dated
             August 4, 2004, the slow connectivity issue is described as:

                    The connection was extremely slow all day. Login
                    times averaged around 5 minutes throughout the day.




                                                                                      3
        Users kept track of processing conduct tests. Delays
        of up to 10 minutes occurred on every type of
        transaction, including document and budget query.

The uncertainty of USAID’s telecommunications infrastructure is a
known risk associated with the FSI project. In the Phoenix Rollout
Project Charter,1 the technology assumptions and risks state that the
technical and communications infrastructure may not support the
system requirements. It also has been reported in several Phoenix
Deployment meetings that USAID is relying on old hardware that
may be unreliable to provide interconnectivity between
USAID/Washington and overseas missions.

On the first two days of pilot testing, July 11 and 12, 2004, the
Egypt mission was unable to access the system due to router
problems.       Subsequently, we observed continued system
difficulties such as system down times and slow response times.
Our observation of the system performance for the duration was
that the system was operational but the quality was inconsistent.
However, based on the Telecommunications Profile of Mission
Sites Report, Egypt’s telecommunication response time was
considered satisfactory. The fact that these issues were not
anticipated and that no resolution has been achieved at this stage
heightens the uncertainty of the global deployment.

One of the concerns expressed by staff interviewed was the
uncertainty of system performance and the impact on daily work.
A system performance survey conducted by the Migration Data
Validation Team, IBM contractor, asks users to rank their response
for two statements on a scale of 1-5, with 1 being the lowest and 5
being the highest. The survey statements were: (1) I find the
system available when I need it, and (2) I find the system response
times adequate to do my job. Of the 27 Egypt participants that
responded to the survey 15 (or 56 percent) of the individuals did
not agree that the system was available when needed. In addition,
18 (or 67 percent) of the respondents did not feel the system
response times were adequate to do their jobs.

The challenge of implementing an enhanced telecommunications
infrastructure to support the existing financial system is critical to the
success of the FSI project. The success of the POD project rests
directly on USAID’s ability to provide a reliable and efficient



1
  Phoenix Rollout Project Charter, MST-PMO-004-CP-004-F00-IBM, dated
8/15/03


                                                                             4
telecommunications solution. The technology assumptions and risks
identified in the Phoenix Rollout Project Charter, highlight the fact
that, “the quality of the telecommunications varies by mission.”2

The Data Migration Process

According to the Phoenix Overseas Deployment High-Level
Deployment Strategy,3 the pilot sites serve as both the testing
ground and the model for the full global deployment of Phoenix.
By piloting the overseas deployment process simultaneously in
three pilot locations, the Phoenix Overseas Deployment team plans
to identify and mitigate the inherent risk involved with a
worldwide systems implementation.

Our review of the pilot migration process found several
inconsistencies between the planned process and what was
implemented during the pilot phase. We question that the pilot
deployment establishes a structured, disciplined approach that can
be replicated in the Phoenix global deployment. The pilot
migration testing activities included training, data preparation,
pilot phase testing, data validation and post-migration data clean
up. Our observations and concerns for each of these areas are
discussed further below.

Training - There were repeated user comments that the training did
not adequately address many mission specific needs. The content of
the training materials as well as the length of the formal training
continues to be of concern. The participants described the training as
too general and unclear. In addition, the participants felt that more
training and time on the system would improve the inadequacies
identified. According to the Egypt mission staff, they implemented
their own training prior to the POD team’s arrival. While the Egypt
mission is to be commended for their efforts, the repeated comments
would seem to suggest that the training materials and instruction
should be reexamined. In addition, mission users continue to express
the need for quick reference guides. However, this request remains
open on the Open Issues Detail Report dated August 27, 2004.

Data Preparation - The Data Preparation Plan explains that
because this effort is labor-intensive, a standard set of tools would
be required.4 An evaluation of several toolsets identified two
2
  Phoenix Rollout Project Charter, MST-PMO-004-CP-004-F00-IBM, dated
August 15, 2003
3
  Phoenix Overseas Deployment High-Level Deployment Strategy dated
October 27, 2003
4
  Phoenix Overseas Deployment High-Level Deployment Strategy dated
October 27, 2003


                                                                         5
Oracle products that met the criteria for reusability, reliability, web
accessibility and trace ability over other products considered (i.e.
Excel, Access etc). The Migration Team chose Oracle 9i
JDeveloper (JDeveloper) as the primary toolset. However,
Microsoft Excel and Access were used to populate the pilot
database and use of the JDeveloper tool was abandoned because it
did not prove to be a practical solution for the users. According to
the Data Preparation Plan, the use of Microsoft Excel and Access
may create problems of data reliability and of tracking files sent to
multiple missions. In addition, the magnitude of the data
preparation effort and the impact on the global deployment
schedule is an unknown factor.

The lack of a consistent methodology to migrate some types of
data created significant issues during the pilot testing as well. For
example, a memorandum drafted to explain the issues encountered
with the migrated pilot vendors records during the Peru pilot
testing resulted in only 600 local Peru and Colombia vendors with
unique vendor codes included in the pilot database. Although the
logic for migrating the local vendors was modified to migrate
agents with recent activity (i.e., paid more than once since FY01),
the number of vendor records with unique vendor codes only
increased to 1,100 out of more than 5,000 MACS Agent records.
The memo further states, “If this new logic is insufficient, we can
discuss other criteria that might be more useful.”5 In addition, the
remaining MACS Agent records were migrated into a single
miscellaneous vendor file. As a result, a new Phoenix vendor code
must be created to make subsequent payments to vendors set up in
the miscellaneous vendor file. The inconsistent methodology used
to migrate the local vendor records demonstrates an unstable
process.

Pilot Testing- The Mission Rollout Phoenix Pilot Deployment
Plan (Mission Deployment Plan) describes the deployment process
to the pilot missions. During our visit to the Egypt mission, we
observed the User Acceptance Testing (UAT) and pilot phase
testing. The UAT performed on transactions went very well with
few issues other than performance concerns. Although the
majority of the UAT on reports occurred after our departure, our
limited observation of the reports training conducted identified
significant concerns regarding the status of developing the reports
that were critical to the missions. Both the Egypt and Nigeria
missions noted their lack of exposure to the Phoenix standard



5
    “Issues with Migrated Pilot Vendors” drafted by the POD Team


                                                                          6
reports in their letters of certification.6 Egypt also stated, “We
agree that all of the planned 28 custom built reports must be
developed by the POD team before the end of the FY 2004 to
facilitate our work.”7

The pilot phase testing was performed to verify that the mission-
configured software met the missions accounting requirements.
Based on the Mission Deployment Plan, users were to test standard
daily transactions as well as transactions that only occur quarterly
and annually. The plan further states, “It is critical that mission
users enter at least one of every document type from the following
list to allow the functional workflow scenarios to be tested.”8 The
list includes 68 possible document types for testing. We
performed analysis of the Egypt pilot database used to determine
the standard daily transactions tested during the pilot phase testing.
Although the staff at the Egypt mission continued to test at least
one of every document type, as a result of our analysis, we noted
that POD team members and Egypt staff appeared to be unaware
of the critical testing requirement. The Peru and Ghana missions
were unable to complete the testing of the required standard daily
transactions. (The level of testing performed at the Nigeria pilot
mission is unclear at the time of this report.) It is our
understanding that both the UAT and transaction level testing will
not be performed during the global deployment.

In conclusion, generally our concern is with regard to the
migration process. An unstable process increases the potential for
an unstable deployment. Given the aggressive global deployment
schedule, there will be little time to execute ad hoc processes for
over 30 missions.

Data Validation - The data validation activities are designed to
verify the effective conversion of the mission migrated data. The
Data Validation Plan states that the IBM Data Migration
Validation team will validate that: (1) the reference tables are
populated correctly and the transaction data is accurate, (2) the
MACS to MACS Auxiliary Ledger (MAL) crosswalks to Phoenix
data elements are used to translate historical and current year MAL
transactions into accurate Phoenix data and (3) the data was
mapped accordingly in the Phoenix system. The overarching
6
  Mission Controllers were asked to certify the Phoenix reports, UAT and the
results of data validation.
7
  Certification for Phoenix Reports, User Acceptance Testing (UAT) Results and
Data Validation dated July 22, 2004, drafted by Homi Jamshed, Controller,
USAID/Egypt
8
  Mission Rollout Phoenix Pilot Deployment Plan, FSI-PHO-004-CP-101.000-
D00-AMS, dated June 4, 2004


                                                                                 7
purpose of the validation phase is to provide confidence that the
missions’ data from MAL matches the data migrated to Phoenix.9

The level of data validation conducted during the pilot deployment
did not appear to adequately address the task at hand. Although
the Mission Deployment Plan indicates that a series of reports
would be issued to each pilot “detailing key vendor information
and document balances,” the fact that the Egypt mission initiated
their own validation effort at a detail level is an indication that the
reports either did not adequately address the needs of the mission
or that the reports were not issued. In addition, errors were
identified in the migrated data during the Egypt pilot testing. In
the analysis performed in Egypt, they:

•   Extracted MACS data for obligation, earmark, commitment,
    and disbursement transactions summed at the budget plan code
    (BPC) level for subsequent grouping at the budget fiscal year
    (BFY) Fund and Operations Unit (Op Unit) level as of May
    2004.

•   Extracted data from the Phoenix pilot database, as of May
    2004, for unilateral and bilateral obligations, sub-
    commitments, sub-obligations and expenditures by the BFY
    Fund and Op Unit.

•   Compared data from the reporting instance/database against
    Egypt’s pilot based data in the MAL for specific Op Units.

•   Compared the MACS and MAL data, the MAL and Phoenix
    pilot database data and the Phoenix pilot database to the
    reporting instance/database.

A difference between the MAL and Phoenix disbursements of
$177,431 was identified. Although the dollar amount is not
significant, the fact that the difference could not be explained is of
concern. In addition, a difference of $1,302,232,776 was identified
when the Phoenix pilot database was compared to the Phoenix
reporting database. Based on our observation, the data validation
plan must be enhanced to ensure that data is migrated accurately at
the detail level as well as the summary level.

Post Migration Data Clean Up - The degree of data clean up
required is dependent on the extent of data preparation performed.
However, the level of data preparation performed by the pilot
9
 Phoenix Overseas Deployment (POD) Data Migration Validation Plan, MST-
PMO-004-CP-050-F00-IBM, dated February 6, 2004


                                                                          8
missions was not consistent. For example, the Egypt mission
reviewed over 5,000 vendor records, and made the necessary
corrections. Of the three pilot missions, only the Egypt mission
successfully completed the labor-intensive task of reviewing and
correcting data for the six10 key areas identified for data
preparation and detail testing of critical data types.             The
uncertainty of the level of effort that will be required for data clean
up with the current global deployment schedule causes great
concern that the schedule allocates sufficient time to adequately
clean-up rejected migrated data.           The additional workload
responsibility for mission staff and POD team members also raises
the question of the sufficient human capital needs.

The Global Deployment Schedule

Our overriding concern is evaluating whether the pilot deployment
process can be successfully repeated for the global deployment. It
is common knowledge that the global deployment is an ambitious
implementation schedule.          The Mission Data Migration
                     11
Implementation Plan describes the Agency’s plan to deploy over
30 accounting stations from the MACS to Phoenix by December
2005. Our observations of the piloting activities in Egypt provided
a view of the process that clearly sets the standard for the Agency.

For example, the Egypt mission performed extensive data
preparation, testing of each of the document types, and detailed
reconciliation procedures to ensure that the pilot testing was a
success. In fact, the success of the pilot testing is largely due to the
exceptional efforts performed by the Egypt mission, and thus its
success might be difficult to repeat. These heroic efforts displayed
during the pilot implementation suggest a process dependent on a
dedicated team rather than a mature implementation process. The
Capability Maturity Model for Software12 suggests that success
that rests on the availability of specific individuals provides no
basis for long-term productivity and quality improvement
throughout an organization.

In addition, the Egypt mission is being provided 5 months of
extended user support to ensure a smooth deployment. However,
this same level of support is not planned for the global deployment.
Understandably, the benefits of a pilot approach to a system
10
   MAL cross-walk validation, bank data, vendor data, obligation strategic
objective mapping, award data and obligation mapping
11
   Mission Data Migration Implementation Plan, FSI-PHO-004-CP-100.000-
F00-JNT, dated May 24, 2004
12
   Capability Maturity Model SM for Software, Technical Report, CMU/SEI-93-
TR-024, February 1993


                                                                              9
             implementation is a proven approach that offers lessons learned
             which can be applied to subsequent phases of the project. Our
             observation of the process suggests that the process involved a
             series of unexpected occurrences that were addressed through
             constantly changing approaches focused on solving the immediate
             crises rather than a solutions-based approach. The challenge
             facing the POD team and the Agency is to create a process that
             will lead to an improved project infrastructure.


Conclusion   The Project Charter clearly points out the expectation of the
             stakeholders, from the Office of Management and Budget, the
             mission users, the Office of Inspector General and others. The
             challenge is not merely to deploy Phoenix in the field but to
             implement the Phoenix system that fulfills the needs of the users.

             The most significant challenge is the aging telecommunications
             infrastructure. The telecommunications questions are further
             complicated by the Agency’s inability to create a baseline
             telecommunications implementation strategy for the global
             deployment because of USAID’s Missions nonstandard
             connectivity environment. Without adequate telecommunication
             capability, the Agency deploys a system that is unacceptable to the
             users and will threaten the Agency’s ability to accurately present
             its’ financial statements. The telecommunications issues should be
             addressed as soon as possible. The question is what price the
             Agency pays for addressing this issue on the back-end rather than
             the front.

             The process that the Agency employed during the pilot also had its
             challenges.     Training, data preparation, reporting and data
             validation must be improved to better meet the user’s needs. The
             challenges encountered with the process can be addressed. Again
             the aggressive global schedule imposes the risk of not achieving a
             static process. We await the Agency’s report which documents the
             challenges encountered during the pilot phase, the courses of
             actions to address them, the assessment of the lessons learned and
             the solutions to address the challenges.

             The documentation that we have reviewed indicates that the global
             deployment will begin November 1, 2004, with the bulk historical
             migration for all missions. The question of what defines a
             successful global deployment varies for each stakeholder. We
             believe that a successful global deployment requires a robust
             telecommunication infrastructure, a static process and well-trained
             willing participants in order to be successful. For all the reasons


                                                                                   10
previously stated, we question whether the Agency has achieved
these elements to success.

We plan to discuss more fully the results of this continuing review
in a subsequent audit report containing our final results.




                                                                      11
                                                                                              Appendix I
                                                                                              Page 1 of 5

                      OIG Interim Report on POD Pilot Observations at Egypt

System Performance and Hardware Challenges (pages 3-5)

Observation
USAID is relying on old hardware that may be unreliable to provide interconnectivity between
USAID/Washington and overseas missions.

Response
The OIG Interim Report focuses on System Performance and Hardware challenges, the same issues that
the Phoenix Overseas Deployment Technical Team believes are critical to project success. Those
challenges—namely telecommunications infrastructure and application architecture—are the ones we
have focused on and are still focusing on in our data-gathering efforts for the rollout. We purposely
selected pilots with a range of telecommunications profiles, allowing us to zero in on latency,
bandwidth, availability/utilization, packet loss rate, number of router hops, and other parameters that
affect performance for the user. The result is that a picture is now emerging of items that cannot be
improved, items that can be improved by buying infrastructure, and items that can be improved by
configuring software, server, and network settings under our control.


Training (page 5)

Observation
There were repeated user comments that the training did not adequately address many mission specific
needs.

Response
Phoenix training for the pilots presented an opportunity and a platform in which to deliver training while
receiving any feedback, suggestions, etc. that could be used or incorporated into training before rolling
out to the remaining missions worldwide. The goal of the pilot mission training was to "pilot" the
instructional information and to improve upon it moving forward. Piloting the Phoenix training resulted
in "lessons learned" that will be acted upon prior to training the remaining mission users during the
worldwide implementation of Phoenix. The areas that will be addressed are as follows:

       • Revision of Training Materials - The general field consensus was that the content of the
           training materials was too generic. The revision of the training materials will incorporate the
           use of relevant business concepts and "real life" scenarios to be included during the topic
           discussions making it easier for the students to grasp the various system concepts being
           presented.

       • System Practice Sessions - Ample practice time on Phoenix will be provided as part of the
           training approach. Student Exercises will include the use of real documents such as
                                                                                              Appendix I
                                                                                              Page 2 of 5

           MAARDS, SOAGs, Vouchers, etc. Practice time will immediately follow the discussion of a
           particular topic to help re-enforce the concept(s) presented.

       • Length of Training - In keeping with the initial training model used for the pilot
           implementation of Phoenix, two weeks of formal training will be conducted for the
           designated Controller Offices and VPN sites worldwide. Supplementing the formal training
           with required "pro-training" will allow more of the training time to be devoted to the actual
           usage of Phoenix, and less time on basic functionality, while increasing the comfort level of
           system use by the mission staff

       • Overall Training Instruction - The emphasis and focus of the training will be to provide end
           users with instruction on the actual use of the system in performing daily work tasks as it
           relates to user roles and responsibilities.

       • Pre-training - Pilot missions indicated that it would be beneficial for mission users to have
           some exposure to Phoenix before the two weeks of formal training is conducted. Phoenix
           "pre-training" materials will be developed as a means of providing supplemental training for
           mission users. The "pre-training" would give the users an opportunity to become familiar
           with the look and feel, as well as some of the functionalities of the system. Less time would
           then have to be spent initially training on the basic concepts and general navigation of
           Phoenix during the formal training period. Instead, the time that would have been spent on
           the introduction to Phoenix can be used as refresher, reinforcement, or review of some
           general system concepts and more time can then be devoted to the actual usage of the system.

Observation
In addition, mission users continue to express the need for Quick Reference Guides.

Response
A number of reference guides have been developed and distributed to the pilot mission users since
August 27, 2004. In addition, guides were created to address specific workflow scenarios affecting a
particular site. A listing of QRGs available to the pilot missions can be found on the Phoenix website at:
http://inside.usaid.govIPMO/projectlphoenixipolicies.htm#guides


Data Preparation (pages 5-6)

Observation
However, Microsoft Excel and Access were used to populate the pilot database and use of the
JDeveloper tool was abandoned because it did not provide a practical solution to the users.

Response
The users did not feel comfortable using the tool provided by the Data Migration Team. The reason the
                                                                                              Appendix I
                                                                                              Page 3 of 5

tool was not used was that the users opted to use tools that were more familiar to them (i.e., Excel and
direct input to MACS). The Data Migration Team is currently streamlining the data prep procedures.

Observation
According to the Data Preparation Plan, the use of Microsoft Excel and Access may create problems. In
addition, the magnitude of the data preparation effort…is an unknown factor.

Response
Based on the experiences gained from the pilot deployment, the Data Migration Team has altered the
methodology of the data preparation effort in two main areas. For the vendor preparation activities, the
missions will conduct the data preparation directly in the MACS tables. This will eliminate the need for
the use of Excel spreadsheets for this piece of the cleanup. Secondly, the Data Migration Team noticed
that the vast majority of the data cleanup options granted to the missions via the preparation tool were
not needed. The missions were satisfied with the data provided to them via the MAL crosswalks and no
additional clean up was needed. This has led the Data Migration Team to limit the options available for
preparation to only the project and SO remapping - further minimizing the need for spreadsheets during
the data preparation effort for the global deployment. In addition, the Bureaus themselves will conduct
the majority of the project to Strategic Objective (SO) remapping.

Observation
The lack of a consistent methodology to migrate some types of data created significant issues during the
pilot testing as well... As a result, a new Phoenix vendor code must be created to make subsequent
payments to vendors set up in the miscellaneous vendor file.

Response
The method of migrating the MACS agents into Phoenix was altered only after input from Peru was
taken into account. Our initial model used for the Peru pilot migration led to a situation in which too
many vendors were migrated into the default miscellaneous vendor. The Data Migration Team adjusted
this approach (migrate agents with recent activity) for the Egypt and Ghana pilot migrations and used
the revised approach for the production migration. This change was made at the request of the missions
and accommodated by the Data Migration Team to enhance further the usability of the data subsequent
to the migration effort.

One of the reasons the Data Migration Team altered the approach to migrate specific records for all
vendors on open obligations and those paid within the past two years was to minimize the need to create
new vendors. The method was altered subsequent to the Peru pilot migration and was consistently
carried over to Ghana and Egypt migration, the production migration, and will be included in the global
deployment approach.
                                                                                             Appendix I
                                                                                             Page 4 of 5

Pilot Testing (pages 6-7)

Observation
It is our understanding that both the UAT and transaction level testing will not be performed during the
global deployment.

Response
The POD team is planning on conducting system and regression testing - to verify that the upgrade to
6.x does not "break" existing Phoenix functionality and to verify that the 6.x configuration meets
mission user needs as documented in the requirements and workflows. The POD team is also planning
on using an automated tool (currently in development) to conduct a detailed document (transaction)
level comparison of migrated data. This is a more comprehensive approach than the one taken during the
pilot, which relied on statistical sampling.

Data Validation (pages 7-8)

Observation
The level of data validation conducted during the pilot deployment did not appear to adequately address
the task at hand.

Response
The data validation team performed detailed, document level validation of obligations, earmarks,
commitments, and disbursements (among other validation summary efforts). The detailed validation
included a statistical sample of documents that were individually reviewed. When discrepancies were
identified, testing incident reports (TIRs) were created and passed to the Data Migration Team for
analysis and correction. 52 TIRs were recorded.

Observation
Although the Mission Deployment Plan indicates that a series of reports would be issued. .the reports
either did not adequately address the needs of the mission or that the reports were not issued.

Response
A document level reconciliation report was distributed to each of the pilot missions subsequent to the
migration. This report highlighted the balances recorded in the MAL and compared them to the balances
recorded in Phoenix after executing the migration programs. This document level detail verified that
over 98% of the documents migrated had Phoenix balances after migration that matched the recorded
balances in the MAL. Egypt would have like additional reconciliations, however, the timeframe between
the end of the pilot migrations and beginning of the production migrations did not allow the Data
Migration Team enough time to tailor the validation reports for each mission.
                                                                                               Appendix I
                                                                                               Page 5 of 5

Post Migration Data Cleanup (pages 8-9)

Observation
Only the Egypt mission successfully completed the detail testing of critical data types

Response
The fact that all missions migrated at above a 98% success rate indicates that all of the pilot missions did
what was necessary to prepare the data for migration. The level of effort may vary between missions
depending on how consistent the data entry has been over the past four years. The data in Peru was
probably one of the cleanest that the Data Migration Team dealt with because Peru did not have any site
mergers or traded projects to account for. This led to a situation where a mission like Peru can meet all
the objectives of the data preparation effort while not needing to expend the effort of a missions like
Ghana or Egypt where projects have been traded and mergers have occurred between two or more
MACS sites.


Global Deployment Schedule (page 9)

Observation
The overriding question is "full global deployment of Phoenix..." We have very serious concerns that the
global migration deployment timeline may be too aggressive to achieve a successful result.

Responses
Like the IG report, Phoenix Pilot Lessons Learned indicate a real need to alter the global deployment
schedule in order to better address a number of issues, such as time for adequate data cleanup. The
revised schedule the Phoenix team is planning towards now will allow more time for both data prep and
data clean-up.
